July 6, 2000
Audit Report No. 00-024


Review of the Claims Made to the
Credit Enhancement Reserve Fund for
Securitization Transaction 1991-03
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                            Office of Inspector General




   DATE:            July 6, 2000

   TO:              Mitchell Glassman, Director
                    Division of Resolutions and Receiverships


   FROM:            David H. Loewenstein
                    Assistant Inspector General

   SUBJECT:         Review of the Claims Made to the Credit Enhancement Reserve
                    Fund for Securitization Transaction 1991-03
                    (Audit Report No. 00-024)

   This report presents the results of a review of the claims made to the Credit Enhancement Reserve
   Fund (Reserve Fund) for securitization transaction 1991-03. This is the first in a series of nine
   reports that the OIG will issue relating to the securitization transactions serviced by Ryland
   Mortgage Company. The independent professional services firm, KPMG Consulting, conducted
   this review under the direction of the OIG.

   The objective of our review was to determine if the realized losses that caused reductions to the
   Reserve Fund for the sample items tested were allowable and adequately supported by
   documentation. The review encompassed a sample of the $7.4 million of claims made to the
   Reserve Fund from August 1991 (inception of the transaction) through May 1998.

   The Division of Resolutions and Receiverships (DRR) issued a written response received May
   17, 2000 (see Appendix II) to a draft report. In this response, DRR disallowed questioned costs
   totaling $230,678 and outlined its plan of corrective action. In a follow-up communication, DRR
   clarified its response as it related to the confirmation of completion of the corrective actions.
   These responses provided the requisites for a management decision on our two recommendations.
   The OIG’s evaluation of management’s comments is presented in Appendix I.

   If you have any questions, please call me at (202) 416-2412 or Marilyn Rother Kraus, Deputy
   Assistant Inspector General, at (202) 416-2426.
June 12, 2000



Ms. Marilyn Rother Kraus
Deputy Assistant Inspector General
Office of Audits
Office of Inspector General
Federal Deposit Insurance Corporation
801 17th Street, NW
Washington, DC 20434

Subject: Report Entitled Review of Credit Enhancement Reserve Fund for Transaction
1991-03

Dear Ms. Kraus:

In accordance with FDIC Delivery Order No. 99-00337-C-LH, KPMG Consulting is
pleased to provide you with our final review report for RTC Transaction 1991-03.

This report presents the results of our review of claims from the Credit Enhancement
Reserve Fund for RTC Transaction 1991-03 made by Ryland Mortgage Company. Our
review was conducted in accordance with the standards applicable to financial related
audits contained in Government Auditing Standards issued by the Comptroller General of
the United States.

If you have any questions, please contact Robert Schmid at (703) 747-4154 or me at
(703) 747-3056.

Sincerely,

KPMG Consulting LLC




Timothy F. Kenny
Managing Director

Attachment
           Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03


In accordance with Federal Deposit Insurance Corporation ("FDIC") Delivery Order
Number 99-00337-C-LH, KPMG completed a review of claims made to the Credit
Enhancement Reserve Fund ("Reserve Fund") for securitization transaction 1991-03.
The FDIC Division of Resolutions and Receiverships ("DRR") Mortgage-Backed
Securities Administration ("MBS") is responsible for the administration and oversight of
the securitization program.

This report presents the results of one of nine reviews of claims made to Reserve Funds
for securitization transactions that KPMG has been engaged to perform by the FDIC's
Office of Inspector General ("OIG"). These reviews are all related to single-family
residential ("SFR") loan securitizations serviced by Ryland Mortgage Company
("Ryland").

BACKGROUND

Securitization is the process by which loans are packaged into pools that are then used as
collateral to back securities sold to investors in the capital markets. The Resolution Trust
Corporation ("RTC")1 used securitization as a method to sell loans from failed
institutions. To obtain a high credit rating, the RTC created Reserve Funds for each
securitization. The purpose of the Reserve Fund is to provide investors with a limited
amount of protection against credit risks in the event that borrowers default or fail to
make timely remittances on loans included in the securitization.

The RTC, the trustee, and the servicer signed a Pooling and Servicing Agreement
("PSA") at each securitization transaction's closing that describes the obligations of the
trustee and servicer. The trustee is responsible for maintaining and investing the Reserve
Funds and remitting interest earned to the FDIC on a monthly basis. The trustee adjusts
the Reserve Funds to reimburse the servicer for realized losses and to reimburse the FDIC
for any rating agency-approved reserve releases. The servicer is responsible for
performing traditional loan servicing functions, including collecting and accounting for
borrowers' payments and resolving delinquent loans. The servicer is also responsible for
making advances of principal and interest payments, and for making corporate advances
to pay property maintenance expenses and attorney fees on defaulted loans. The servicer
remits all collections and advances to the trustee monthly, along with electronic
collection reports. The trustee then passes the collections and principal and interest
advances through to the investors.

Upon liquidation of a defaulted loan, the servicer prepares an officer's certificate that
reports the realized loss or gain. An itemization of the net liquidation proceeds, non-
recoverable advances, and the remaining principal balance of the defaulted loan support
the officer’s certificate. Upon receipt of the officer's certificate, the trustee releases the
amount of the realized loss or deposits the amount of the realized gain from/to the
Reserve Fund. Any remaining balance in the Reserve Fund returns to the FDIC after the


1
  The RTC’s legislatively mandated sunset date was December 31, 1995. Responsibility for all RTC-
related work as of that date was transferred to the FDIC in accordance with the RTC Completion Act.


                                               1 of 9
             Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03

securitization transaction terminates. Therefore, claims to the Reserve Fund directly
impact the value of the FDIC's residual interest in the Reserve Fund.

SECURITIZATION TRANSACTIONS SERVICED BY RYLAND

The RTC entered into nine PSAs with Ryland Mortgage Company ("Ryland") as the
servicer. Table 1 presents each of the nine securitized transactions serviced by Ryland,
the amount of the initial Reserve Fund balance, and the amount of realized losses charged
to the Reserve Fund through May 1998. In May 1998, Ryland ceased servicing these
securitizations and transferred servicing to another servicer, PNC Mortgage Corporation
of America.

Table 1: Summary of Reserve Fund Balances and Realized Losses
 Transaction                    Initial Reserve          Realized Losses Claimed
                                              2
 Number                         Fund Balance                through May 19983
 91-01                                     $51,335,000                  $28,322,467
 91-03                                    $128,578,493                   $7,375,105
 91-07                                    $173,998,810                  $13,538,760
 91-09                                     $17,461,645                 $17,461,6454
 91-12                                     $68,451,306                  $32,164,552
 91-15                                     $45,177,381                  $10,735,406
 92-01                                     $77,554,433                  $10,864,625
 92-03                                    $199,092,010                  $28,393,589
 92-04                                    $133,919,842                  $23,365,863
 Total                                    $895,568,920                $172,222,210
    Source: See Footnotes 2 and 3

SECURITIZATION TRANSACTION 1991-03

At the inception of securitization transaction 1991-03 in August 1991, State Street Bank
& Trust ("State Street") was named as the trustee and Ryland was named as the servicer.
As shown above, the initial Reserve Fund balance established at inception totaled $128.6
million. During the period selected for review, Ryland was the only loan servicer for 91-
03. Ryland charged $7.4 million in realized losses to the Reserve Fund through May
1998.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of the review was to determine if the realized losses that caused reductions
to the Reserve Fund for securitization transaction 1991-03 for the sample items tested


2
  Source: RTC and FDIC Guide to Mortgage-Backed Securities, June 1998.
3
  Source: Statements to Certificateholders provided to OIG by the trustee and the FDIC Public Reading
Room.
4
  The Reserve Funds were depleted in August 1995 for transaction number 91-09.


                                                  2 of 9
           Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03

were allowable and adequately supported by documentation.5 To meet this objective, we
reviewed a predetermined sample of realized losses charged to the Reserve Fund for the
period of August 1991 through May 1998. Our sample size, determined by the OIG, was
comprised of 25 loans with realized losses totaling $536,368, or 7 percent of the $7.4
million in realized losses charged to the Reserve Fund through May 1998.

We did not have access to Ryland's staff, systems, or general ledger. Therefore, KPMG
could not interview Ryland personnel or conduct tests of Ryland’s systems and general
ledgers in order to detect accounting errors. Our scope was further limited to a review of
the opening scheduled principal balances and escrow account balances of the sampled
loans as of the default date because previous loan period activity was not available for
our review.

Our methodology consisted of a review of the documentation in the loan files supplied to
the OIG by Ryland under subpoena, as well as a review of officer's certificates provided
to OIG by Ryland, State Street, and MBS. Our work also included a review of the
documentation contained in the files of MBS's oversight contractor, MGIC Investor
Services Corporation ("MGIC") that were provided to OIG by MBS. One of MGIC's
duties under its contract was to review the realized losses for reasonableness after the
servicer sent the officer's certificate to the trustee and to report to MBS on the results of
those reviews.

During our examination of the loan files and MGIC files, we: 6
§ reviewed all available settlement statements and other disposition documents to
   confirm the amount of the net proceeds;
§ reviewed loan histories and amortization schedules, where available, to verify the
   proper amount of principal and interest advances and the remaining scheduled
   principal balances;
§ reviewed the adequacy of the documentation supporting the corporate advances
   charged to the realized loss; searched for unrecorded income and overstated
   advances;
§ recalculated the amortization of the sampled loans to verify that the principal and
   interest advances that Ryland charged to the Reserve Fund conformed to the terms of
   the note and that the proper interest rate was used in the calculation;
§ traced the interest rate used to the appropriate index to verify that the interest rate
   used by Ryland was correct;
§ confirmed that servicing fees were excluded from interest advances;
§ verified the default and liquidation dates using evidence in the loan files and verified
   that Ryland ceased principal and interest advances in the month of liquidation; and,
§ recalculated the unused insurance premium refunds that did not appear to have been
   credited to the Reserve Fund.

5
  In accordance with the overall objective of the Task Requirements set forth in the Statement of Work for
FDIC Delivery Order #99-00337-C-LH.
6
  Testwork performed in accordance with the procedures stated in the Statement of Work for FDIC
Delivery Order #99-00337-C-LH – Attachment A.



                                                   3 of 9
        Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03


Ryland chose to submit to the OIG the original loan files containing the documentation to
support the realized losses charged to the Reserve Fund for the 25 sampled loans.
Therefore, we performed all of our work in the FDIC OIG's offices in Washington, D.C.
We conducted the work in accordance with the standards applicable to performance
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States. The review began on October 13, 1999 and fieldwork was
completed on March 24, 2000.


RESULTS

Overall, we found that each of the calculations of realized losses for the 25 sample loans
contained unsupported costs and other questioned costs. Of the $536,368 in claims to the
Reserve Fund, we identified questioned costs totaling $230,678, or 43 percent of total
claims reviewed. Of the total questioned costs, $206,168 was considered to be
unsupported and $24,510 was considered to be other questioned costs that were
unallowable or excessive under the terms of the PSA. Table 2 presents an overall
summary of the results of our testing of the 25 sample loans.

Table 2: Summary of Total Questioned Costs Totaling $230,678
                                                         Percent of
Description                   Dollars       Total Questioned     Total Realized
                                                  Costs           Losses Tested
Unsupported Costs            $206,168             89%                 38%

Other Questioned Costs              $24,510                 11%                      5%

Total                              $230,678                 100%                     43%
Total Realized Losses              $536,368
Tested


UNSUPPORTED COSTS

Unsupported costs are those costs included in the realized loss calculation that were not
supported by adequate documentation. KPMG categorized the unsupported costs into
five categories for the purpose of this report:

§   Unsupported Liquidations
§   Unsupported Escrow Disbursements
§   Unsupported Liquidation Expenses/Corporate Advances
§   Unsupported Principal and Interest Advances
§   Other Unsupported Costs



                                              4 of 9
         Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03


Table 3 reports the relationship of each category as a component of total unsupported
costs for 1991-03.

Table 3: Summary of Unsupported Costs Totaling $206,168
                                                                                   Percent of
                                     Number of           Amount of
 Category                            Loans With         Unsupported         Total            Total
                                       Errors              Costs         Unsupported        Realized
                                                                            Costs            Losses
                                                                                             Tested
 Unsupported Liquidations                  5             $147,952             72%               28%

 Unsupported Escrow
                                           12             $30,778             15%               6%
 Disbursements

 Unsupported Liquidation
 Expenses/Corporate                        12             $18,840              9%               3%
 Advances

 Unsupported Principal and
                                           1               $4,954              2%               1%
 Interest Advances

 Other Unsupported Costs                   4               $3,644              2%               <1%

 TOTAL                                                   $206,168            100%               38%

Unsupported Liquidations

Most significantly, KPMG was unable to verify the claims, totaling $147,952, for five
loans in our sample because there was insufficient evidence in the loan file to support that
the liquidation took place. For example, the loan file may not have contained a closing
statement (e.g., HUD-1 document) which supports the sales price, the date of the sale or
the liquidation expenses. Without the HUD-1 document, KPMG could not verify the net
proceeds that the servicer received from the sale of the foreclosed property and included
in the calculation of the realized loss. In some instances, we could not verify that a sale
actually occurred because there was insufficient evidence in the loan file to document
that the property was sold to a third party and that the net proceeds were remitted to the
servicer.

Initial claims are only valid if the foreclosed property is liquidated. The servicer would
maintain the property as an asset in the absence of a foreclosure sale. Because we could
not always verify that a foreclosure sale occurred and that the property is no longer the
responsibility of the servicer, these claim amounts were considered unsupported. In
addition to the initial claim, KPMG considered all supplemental claims and refunds to the



                                               5 of 9
           Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03


Reserve Fund to be unsupported as well. Unsupported liquidations account for 72
percent of total unsupported costs and 28 percent of total realized losses tested.

Unsupported Escrow Disbursements

KPMG identified $30,778 of unsupported escrow disbursements made for 12 of the
sampled loans. These unsupported costs related to attorney fees, bankruptcy fees,
property management/repairs, and other expenses paid by the servicer prior to
liquidation. Ryland's practice was to pay all of these types of costs from the escrow
account. KPMG considered any escrow disbursement to be unsupported if there was (1)
no detailed invoice7 from the vendor who provided the service or utility; and, (2)
evidence of Ryland's actual payment. If one or the other was missing from the loan file,
then KPMG considered the expense to be an unsupported cost. Because KPMG did not
have access to Ryland's general ledger, we could not perform tests of the system. We
determined that the only acceptable evidence of payment would be a copy of a check or
wire transfer confirmation. Unsupported escrow disbursements of $30,778 account for
15 percent of total unsupported costs and 6 percent of total realized losses tested.

Unsupported Liquidation Expenses/Corporate Advances

KPMG identified $18,840 of unsupported liquidation expenses and corporate advances.
For 12 of the sampled loans, KPMG could not locate sufficient evidence in the file (i.e.
invoice and evidence of payment) to substantiate the deductions from sales proceeds on
the HUD-1, property management expenses paid from net sales proceeds, or corporate
advances. These expenses and advances were normally deducted from the net proceeds
of the liquidation, or claimed for reimbursement subsequent to the submission of the
initial officer’s certificate. Examples of liquidation expenses and corporate advances
were broker/management bills, unusual expenses deducted from proceeds on the closing
statement, and utilities. Unsupported liquidation expenses and corporate advances
account for 9 percent of total unsupported costs and 3 percent of total realized losses
tested.

Unsupported Principal and Interest Advances

KPMG identified unsupported principal and interest advances totaling $4,954 related to
one loan. KPMG could not recalculate the principal and interest advances because the
loan file did not contain the mortgage note. Although the loan file contained information
such as payment dates, interest rate(s) and payment adjustment frequency, we could not
verify the loan terms necessary for the principal and interest advance calculation.
Because it is possible for an individual to inadvertently enter incorrect information
related to the terms of a loan into a servicing system, we relied solely on the mortgage

7
  For example, property managers would often pay expenses and claim reimbursement from Ryland by
submitting an invoice that itemized these expenses. KPMG considered these property management
expenses to be unsupported if the underlying detailed invoices from the actual third party vendors were not
available to adequately support the property management invoices.



                                                   6 of 9
           Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03


note for loan information such as the interest rate, payment dates, rate changes and
payment changes. Without the mortgage note, we cannot verify that the information used
in the calculation of principal and interest reflects the true characteristics of the loan.
Accordingly, the total amount of principal and interest advances claimed by the servicer
could not be verified, and this amount was considered unsupported. Unsupported
principal and interest advances account for 2 percent of total unsupported costs and 1
percent of total realized losses tested.

Other Unsupported Costs

Four of Ryland’s loan files did not contain sufficient documentation to substantiate either
the total net realized loss calculation, or a portion of it. KPMG therefore, classified the
unsubstantiated claim amounts of $3,644 related to these loans as unsupported costs.
Other miscellaneous unsupported costs account for 2 percent of total questioned costs and
less than 1 percent of all realized losses tested.

Recommendation

We recommend that the Manager, MBS, DRR:

(1)      Disallow the unsupported costs of $206,168 as detailed below:
          Unsupported Liquidations                                              $147,952
          Unsupported Escrow Disbursements                                       $30,778
          Unsupported Liquidation Expenses/Corporate Advances                    $18,840
          Unsupported Principal and Interest Advances                             $4,954
          Other Unsupported Costs                                                 $3,644



OTHER QUESTIONED COSTS

Other questioned costs are those costs that were included in the realized loss calculation
and that KPMG determined to be unallowable under the terms of the PSA or excessive
under standard industry loan servicing practices. KPMG categorized unallowable or
excessive costs identified during the review into five categories for the purpose of this
report:

§     Unrecorded Income
§     Unallowable/Excessive Liquidation Expenses/Corporate Advances
§     Unallowable Principal and Interest Advances
§     Unallowable Escrow Disbursements
§     Miscellaneous Unallowable Costs

Table 4 reports the relationship of each category as components of total other questioned
costs for 1991-03.



                                               7 of 9
         Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03


Table 4: Summary of Other Questioned Costs Totaling $24,510
                                                        Amount of                Percent of
                                      Number of           Other
Category                                                               Total Other     Total Realized
                                        Loans           Questioned     Questioned      Losses Tested
                                                          Costs           Costs
Unrecorded Income                          12             $7,815           32%                2%

Unallowable or Excessive
Liquidation                                11             $6,706           27%                1%
Expenses/Corporate Advances

Unallowable Principal and
                                           13             $6,841           28%                1%
Interest Advances

Unallowable Escrow
                                           2              $144             1%                 <1%
Disbursements

Miscellaneous Unallowable
                                           1              $3,004           12%                1%
Costs

TOTAL                                                     $24,510         100%                5%

Unrecorded Income

For twelve of the sampled assets, KPMG identified instances where Ryland did not credit
the Reserve Fund for refunds of unused insurance premiums, or insurance proceeds,
totaling $7,815. Most significantly, there was no evidence in the loan files to show that
Ryland refunded $7,287 of unused hazard or flood insurance premiums after the loan
liquidated. Unrecorded income represents 32 percent of total other questioned costs and
2 percent of total realized losses tested.

Unallowable or Excessive Liquidation Expenses/Corporate Advances

Ryland included $6,706 of unallowable or excessive liquidation expenses or corporate
advances in 11 of the sampled loans. Most significantly, Ryland paid sales commissions
in excess of 6% of the contract sales price, which we considered to be excessive for the
servicing industry during the period under review. In addition, any excess cost incurred
by Ryland through the contracting-out of property management or other servicing
functions (i.e., property management fees) may not be reimbursed from the Reserve Fund
per section 3.01(b) of the PSA. Ryland included excessive commissions totaling $4,751
and property management fees, totaling $1,523, in its net realized loss calculation for 10
loans resulting in $6,274 of unallowable costs. The remaining $432 related to two loans
where Ryland erroneously underreported liquidation proceeds on the officer’s certificate.
Unallowable or excessive liquidation expenses and corporate advances account for 27
percent of total other questioned costs and 1 percent of total realized losses tested.



                                               8 of 9
        Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-03



Unallowable Principal and Interest Advances

Ryland made errors totaling $6,841 in the calculation of principal and interest advances
claimed in the realized loss calculation. Ryland inappropriately included servicing fees
in the calculation of principal and interest advances and improperly claimed additional
months of principal and interest advances beyond the liquidation date. Ryland
erroneously included a servicing fee in the principal and interest advances in 13 of our
sampled loans, causing an overstatement of $3,006. Furthermore, in 5 of those 13 loans,
Ryland also advanced more months of principal and interest than was allowable under the
terms of the PSA, causing the realized losses to be overstated by $3,835. Unallowable
principal and interest advances account for 28 percent of total other questioned costs and
1 percent of total realized losses tested.

Unallowable Escrow Disbursements

Ryland charged the Reserve Fund $144 for avoidable late fees associated with
homeowners' association dues for two loans. We considered these late fees to be
unallowable because they were incurred during the period that Ryland was responsible
for paying homeowners' association dues. Ryland’s responsibility under section 3.01(a)
of the PSA is to ensure timely payment of taxes and assessments on mortgaged properties
and timely payment of other property protection expenses. Unallowable escrow
disbursements account for 1 percent of total other questioned costs and less than 1
percent of total realized losses tested.

Miscellaneous Unallowable Costs

Ryland received a tax refund of $1,502 for one of the sampled loans. However, instead
of crediting the Reserve Fund for $1,502, Ryland mistakenly included this amount as an
expense on the April 1998 officer’s certificate. Therefore, Ryland should reimburse the
Reserve Fund for $3,004 to reverse this error. Miscellaneous unallowable costs account
for 12 percent of total other questioned costs and 1 percent of total realized losses tested.

Recommendation

We recommend that the Manager, MBS, DRR:

(2)    Disallow the other questioned costs of $24,510 as detailed below:
       Unrecorded Income                                                        $7,815
       Unallowable or Excessive Liquidation                                     $6,706
       Expenses/Corporate Advances
       Unallowable Principal and Interest Advances                              $6,841
       Unallowable Escrow Disbursements                                           $144
       Miscellaneous Unallowable Costs                                          $3,004



                                              9 of 9
                                                                                 APPENDIX I



MANAGEMENT COMMENTS AND OIG EVALUATION


On May 17, 2000, the Deputy Director, Franchise and Asset Marketing, DRR, provided a written
response to the draft report. The response is presented in Appendix II to this report.

DRR Management agreed to disallow all of the questioned costs in Recommendations 1 and 2,
totaling $230,678. DRR also stated that once all nine Ryland reviews are completed by the OIG,
DRR will pursue collection of the total disallowed amount. If DRR is unsuccessful in the
collection of the funds from Ryland, DRR will refer the matter to the FDIC Legal Division for
litigation. Further communications with DRR confirmed that DRR will issue a demand letter to
Ryland as confirmation of its corrective actions. DRR expects that corrective actions will be
completed by August 31, 2000.

The Corporation’s response to the draft report, as well as the subsequent communications,
provided the elements necessary for management decisions on the report’s recommendations.
Therefore, no further response to this report is necessary. Appendix III presents management’s
proposed action on our recommendations and shows that there is a management decision for each
recommendation in this report.

Based on the review work, the OIG will report questioned costs of $230,678 (of which $206,168
is unsupported) in its Semiannual Report to the Congress.
                                                                                                    APPENDIX II
Federal Deposit Insurance Corporation
550 17th Street, NW, Washington, DC 20429                                         Division of Resolutions and Receiverships




                    May 17, 2000

TO:                 David Lowenstein
                    Assistant Inspector General

FROM:               James R. Wigand
                    Deputy Director, DRR
                    Franchise and Asset Marketing

SUBJECT:            Response to Draft Report Entitled Review of the Claims Made to the Credit
                    Enhancement Reserve Fund for the Securitization Transaction 1991-03


The following describes the management actions in response to recommendations contained in
the above referenced report.


1)         Disallow the unsupported costs of $206,168 as detailed below:

                    •    Unsupported Liquidations - $147,452
                    •    Unsupported Escrow Disbursements - $30,778
                    •    Unsupported Liquidation Expenses/Corporate Advances - $18,840
                    •    Unsupported Interest Advances - $4,954
                    •    Other Unsupported Costs - $3,644

           A)       Specific Corrective Action Already Taken:

                    MBS Administration concurs with the OIG’s findings to disallow the $206,168 in
                    unsupported costs claimed by Ryland to the Credit Enhancement Fund for each
                    detailed category listed above.

           B)       Corrective Actions to be Taken Together with Expected Completion Date:

                    MBS Administration will pursue collection of the disallowed amount of $206,168
                    as soon as the OIG has completed the audit reports for the remaining eight (8)
                    MBS transactions serviced by Ryland. If MBS Administration is unsuccessful in
                    the collection of the funds from Ryland, the matter will be referred to the FDIC
                    Legal Division for litigation1. We expect these actions to be completed by August
                    31, 2000.



1
    Litigation would encompass all audit exceptions for all of the contracts between the FDIC and Ryland.
2)        Disallow the other questioned costs of $24,510 as detailed below:

                 •   Unrecorded Income - $7,815
                 •   Unallowable or Excessive Liquidation Expenses/Corporate Advances - $6,706
                 •   Unallowable Principal and Interest Advances - $6,841
                 •   Unallowable Escrow Disbursements - $144
                 •   Miscellaneous Unallowable Costs - $3,004


          A)     Specific Corrective Action Already Taken:

                 MBS Administration concurs with the OIG’s findings to disallow the $24,510 in
                 unsupported costs claimed by Ryland to the Credit Enhancement Fund for each
                 detailed category listed above.


          B)    Corrective Actions to be Taken Together with Expected Completion Date:

                 MBS Administration will pursue collection of the disallowed amount of $24,510
                 as soon as the OIG has completed the audit reports for the remaining eight (8)
                 MBS transactions serviced by Ryland. If MBS Administration is unsuccessful in
                 the collection of the funds from Ryland, the matter will be referred to the FDIC
                 Legal Division for litigation2. We expect these actions to be completed by August
                 31, 2000.



cc:              Director of Internal Control
                 Director, Division of Resolutions and Receiverships
                 Associate Director for Internal Review, DRR




2
    Id.
                                                                                                                                               APPENDIX III

MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to
the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the
response must describe for each recommendation

§   the specific corrective actions already taken, if applicable;
§   corrective actions to be taken together with the expected completion dates for their implementation; and
§   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information
for management decisions is based on management’s written response to our report. Subsequent communications between OIG and FDIC management resulted in
identifying the documentation that will confirm management’s completion of corrective actions.

                                                                                              Documentation That                    Management
 Rec.                                                                    Expected                Will Confirm        Monetary       Decision: Yes
Number         Corrective Action: Taken or Planned/Status             Completion Date            Final Action        Benefits          or No
             The Corporation agreed to disallow $206,168 and
             will pursue collection of this amount upon OIG’s
    1                                                                  August 31, 2000       Demand Letter            $206,168           Yes
             completion of the reviews of the other MBS
             transactions serviced by Ryland.
             The Corporation agreed to disallow $24,510 and
             will pursue collection of this amount upon OIG’s
    2                                                                  August 31, 2000       Demand Letter            $24,510            Yes
             completion of the reviews of the other MBS
             transactions serviced by Ryland.
